NO.

IN THE
SUPREME COURT OF ".CHE UNITED STATES

NEIL DUSSARD,
Petitioner
vs.
UNITED STATES OF AMERICA,
Respondent

ANTI-VIRUS CERTIFICATION FORM
I, Devin McLaughlin, Esq., certi~Ey that I have scanned for viruses the PDF version of
Petition Neil Dussard's Petition for Writ of Certiorari that was submitted in this case and that no
viruses were detected.
Please print the name and the version of the anti-virus detector that yotz used:
Sophos Antivirus, Version 10.8.9.610
I~f you know, please print the version of revision and/or the anti-virus signature files:
Engine 3.79.0, Virus Data 5.80, Detects 57,337,198 Threats

Date: December 4, 2020

(U~192.1

/.s/ Devin McLazr~;hlin
Devin McLaughlin

